BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae Governor Douglas A.
Ducey, President of the Arizona State Senate Karen
Fann, and Speaker of the Arizona House of
Representatives Russell Bowers in Support of
Petitioners in 19-1257 & 19-1258, Arizona Republican
Party, et al. v. Democratic National Committee, et al.,
were sent via Three Day Service to the U.S. Supreme
Court, and e-mail service to the following parties listed
below, this 1st day of June, 2020:
Oramel H. (O.H.) Skinner
Solicitor General
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
o.h.skinner@azag.gov

Counsel for Petitioners
Bruce V. Spiva
Marc Erik Elias
Perkins Coie LLP
700 Thirteenth Street N.W.
Suite 600
Washington, DC 20005-3960
(202) 434-1609
BSpiva@per kinscoie .com
MElias@perkinscoie.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@jonesday.com

Counsel for Petitioners
Arizona Republican Party, et al.
Jessica Ring Amunson
Sam Hirsch
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001-4412
(202) 639-6000
JAm unson@jenner.com
SHirsch@jenner.com

Counsel for Respondent
Katie Hobbs, in her official capacity as
Secretary of State of Arizona
Dominic E. Draye
Counsel of Record
Jonathan K. Ogata
Greenberg Traurig, LLP
2101 L Street N.W.
Washington, DC 20037
drayed@gtlaw.com
(202) 331-3168

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 1, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Nuta•, ,;ublic, State of Ohio
My Commis:oion Expires
February 14, 2023

